   - IFF Financial Reporting. The IFF’s financial reporting process lacked key controls,
     including monitoring relationships with and disbursements to service providers and
     adequately controlling check receipts, deposits, and accounts receivable balances. In
     addition, there is doubt as to whether the IFF will continue after its authorizing legislation
     expires on October 1, 2001.

We made seven recommendations to address the weaknesses identified in our tests of the DO’s
internal controls. The DO concurred with the seven recommendations. Based on the DO’s
response to our draft report (Appendix 3), we consider the recommendations resolved but not
implemented. Accordingly, the recommendations will be referred to the Assistant Secretary for
Policy, Management and Budget for tracking of implementation.

Since the recommendations are considered resolved, no further response to the Office of Inspector
General is required (see Appendix 4).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

The independent auditors report, which includes the DO’s Annual Report, is intended for the
information of management of the Department of the Interior, the Office of Management and Budget,
and the Congress. The report, however, is a matter of public record, and its distribution is not
limited.



                                           Roger La Rouche
                                           Assistant Inspector General
                                             for Audits


[CONTACT THE ASSISTANT SECRETARY FOR POLICY, MANAGEMENT AND BUDGET FOR INFORMATION ON THE
DEPARTMENTAL OFFICES= FINANCIAL STATEMENTS FOR FISCAL YEAR 2000, WHICH ARE NOT INCLUDED.]
